              Audit Report




Payment Accuracy of Dually Entitled
       Title II Beneficiaries




       A-04-13-13014 | August 2014
MEMORANDUM


Date:      August 27, 2014                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration was paying the correct benefit to individuals who
           had dual entitlements under the Title II program.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Payment Accuracy of Dually Entitled Title II Beneficiaries
A-04-13-13014

August 2014                                                                 Office of Audit Report Summary

Objective                                  Our Findings

Our objective was to determine             Of the 50 sample Title II beneficiaries who were receiving benefits
whether the Social Security                on 2 Social Security records, we determined that SSA incorrectly
Administration (SSA) was paying the        paid 29 (58 percent) beneficiaries full benefits on both records.
correct benefit to individuals who had
dual entitlements under the Title II       Of the 29 payment error cases, 9 may have been subject to SSA’s
program.                                   administrative finality regulations. If SSA applies its
                                           administrative finality regulations to these cases, it will not collect
Background                                 the overpayments or correct the ongoing payment errors. For these
                                           payment error cases, we estimate, as of March 2013, SSA had
SSA administers the Old-Age,               overpaid about 664 beneficiaries approximately $7.6 million. SSA
Survivors and Disability Insurance         will continue overpaying the child beneficiaries until they reach age
program under Title II of the Social       18 and are no longer entitled to benefits or the adult beneficiaries
Security Act. The program provides         die, resulting in additional overpayments of about $10.3 million. In
monthly benefits to retired or disabled    a previous report, we recommended SSA evaluate, and consider
workers and their families and to          revising, its administrative finality regulations to allow for the
survivors of deceased workers.             collection of more debt. SSA agreed with the recommendation and
                                           issued proposed rule changes for public response.
Dual entitlement exists when a
beneficiary is entitled to more than one   For the remaining 20 payment error cases, we estimate that, as of
benefit at the same time. For example,     March 2013, SSA had overpaid approximately 1,475 beneficiaries
a beneficiary may be entitled to           about $6 million. In addition, 18 of the 20 beneficiaries had
retirement benefits on his/her own         overpayments that continued after March 2013. As such, we
earnings record and a spouse’s benefits    estimate that, for the 12 months following our audit, overpayments
on another person’s record. Although       in our population totaled about $4.3 million.
a beneficiary may be simultaneously
entitled to more than one benefit, the     Our Recommendations
total benefit may not be greater than
the highest single benefit amount to       We recommended that SSA:
which they are entitled. Generally,
SSA calculates the amounts due and         1. Review all cases in our population to ensure all overpayments
combines the benefits into one monthly        are identified, recorded, and pursued for recovery.
payment.
                                           2. Based on review and analysis of the cases from
Our current review assessed the               recommendation one, determine whether additional controls are
accuracy of payments for beneficiaries        necessary to identify and correct Title II duplicate payments.
who received benefits under more than
one beneficiary record, but SSA’s
records did not indicate that dual
entitlement existed.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     SSA Overpaid Dual-entitlement Benefits ..................................................................................3
           Dual-entitlement Errors Involving Administrative Finality ................................................4
           Dual-entitlement Errors Not Involving Administrative Finality .........................................5
Conclusions ......................................................................................................................................6
Recommendations ............................................................................................................................7
Agency Comments ...........................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sample Results and Projections .......................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) was paying
the correct benefit to individuals who had dual entitlements under the Title II program.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance program under Title II of the
Social Security Act. 1 The program provides monthly benefits to retired or disabled workers and
their families and to survivors of deceased workers.

Dual entitlement exists when a beneficiary is entitled to more than one benefit at the same time.
For example, a beneficiary may be entitled to retirement benefits on their own earnings and a
spouse’s benefits on another person’s Social Security record. 2 Although a beneficiary may be
simultaneously entitled to more than one benefit, the total benefit may not be greater than the
highest single benefit amount to which they are entitled. Generally, SSA calculates the amounts
due and combines the benefits into one monthly payment. 3 Other examples of dual entitlement
are an adult who is entitled on their

      own record and a deceased spouse’s record, or
      current spouse’s record and a deceased spouse’s record.

We conducted two previous audits on benefits paid to multiple entitled beneficiaries—Benefits
Paid to Dually Entitled Title II Beneficiaries and Individuals Receiving Multiple Old-Age,
Survivors and Disability Insurance Benefits. 4 These audits evaluated the accuracy of benefit
payments for beneficiaries whom SSA knew to be dually entitled. In contrast, our current review
assessed the accuracy of payments for beneficiaries who received benefits under more than one
beneficiary record, but SSA’s records did not indicate that dual entitlement existed.




1
    Social Security Act § 201 et seq.; 42 U.S.C. § 401 et seq.
2
 SSA establishes a Master Beneficiary Record for each claimant. The Master Beneficiary Record maintains
pertinent information needed to accurately pay benefits to the claimant and all entitled dependents. The information
SSA maintains includes identification data (name, Social Security number, date of birth, address), type and date of
disability, and monthly Disability Insurance benefit.
3
 SSA, Program Operations Manual System, section GN 02401.025. Generally, benefits are combined into one
monthly payment unless they are derived from different Trust Funds.
4
 SSA OIG, Benefits Paid to Dually Entitled Title II Beneficiaries (A-01-06-26004), September 2007, and
Individuals Receiving Multiple Old-Age, Survivors and Disability Insurance Benefits (A-01-08-28048),
September 2009.



Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                                         1
To accomplish our objective, we identified a population of about 3,700 individuals who were
receiving dual entitlement benefits as of November 2012 but for whom SSA’s records did not
indicate dual entitlement. From this population, we randomly selected 50 records for detailed
analysis. Appendix A contains our scope and methodology.

RESULTS OF REVIEW
Because SSA did not always recognize that beneficiaries were receiving benefits on two Social
Security records, SSA paid beneficiaries more benefits than they were entitled to receive. Of the
50 dual-entitlement cases we reviewed, SSA overpaid 29 (58 percent) beneficiaries.

Of the 29 payment error cases, 9 may have been subject to SSA’s administrative finality
regulations. 5 If SSA applies administrative finality to these cases, it will not collect the
overpayments or correct the ongoing payment errors. 6 For these payment error cases, we
estimate that, as of March 2013, SSA had overpaid about 664 beneficiaries approximately
$7.6 million. SSA will continue overpaying the child beneficiaries until they reach age 18 7 and
are no longer entitled to benefits or the adult beneficiaries die, 8 resulting in additional
overpayments of about $10.3 million. In a previous report, we recommended SSA evaluate, and
consider revising, its administrative finality regulations to allow for the collection of more debt.
SSA agreed with the recommendation and issued proposed rule changes for public response. 9

For the 20 payment error cases that did not involve administrative finality, we estimate that, as of
March 2013, SSA had overpaid approximately 1,475 beneficiaries about $6 million. In addition,
18 of the 20 beneficiaries had overpayments that continued after March 2013. Based on the
number of continuing overpayment errors, we estimate, for 1 year following March 2013,
overpayments in our population totaled about $4.3 million.

Additionally, 21 (42 percent) of the 50 sample cases did not have dual-entitlement
overpayments. When we obtained the audit population in November 2012, 2 of the 21 sampled



5
  Generally, under administrative finality, SSA will only revise an incorrect Title II benefit calculation that resulted
in payment of more benefits than were due, if the error is discovered within 4 years. Conversely, if SSA discovers
the error after 4 years, the Agency generally does not adjust the payment amounts. See Social Security Act §§
205(c)(4) and (5), 42 U.S.C. §§ 405 (c)(4) and (5), 20 C.F.R. §§ 404.987-404.996, and SSA’s Program Operations
Manual System, section GN 04020.
6
  If a payment error results in a beneficiary being underpaid, SSA may correct the underpayment regardless of when
the error occurred. See SSA’s Program Operations Manual System GN 04020.080.A.
7
 For the children in our sample, we estimated that the future payment errors would continue until the beneficiary
attained age 18 when they would no longer be entitled to child benefits.
8
  For the beneficiaries in our sample who were already past SSA’s full retirement age (which is between 65-and
67-years-old based on a beneficiary’s date of birth), we estimated the future payment errors would continue until
they die. For our estimates, we used the life expectancies as reported by the Centers for Disease Control (National
Vital Statistics Report, Vol. 62, no. 7, January 6, 2014, Tables 2 and 3).
9
    See Federal Register/Vol.78, No. 147/Wednesday, July 31, 2013/ Proposed Rules (page 46309).



Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                                                 2
cases did not have an overpayment, but 19 had dual-entitlement overpayments. However, during
our audit period, SSA identified the overpayments and took corrective actions. Although we did
not report these 19 cases as payment errors, had SSA timely identified that the beneficiaries were
receiving full benefits on 2 records, the Agency could have prevented the large overpayments.

SSA Overpaid Dual-entitlement Benefits
Because SSA did not always recognize that some beneficiaries were receiving benefits on two
records, SSA paid beneficiaries more benefits than they were entitled to receive. Of the
50 dual-entitlement cases we reviewed, 29 (58 percent) contained payment errors. Of these
29 payment error cases, 9 may have been subject to SSA’s administrative finality regulations. If
SSA applies its administrative finality regulations to these cases, it will not collect the
overpayments or correct the ongoing payment errors. Table 1 summarizes and projects these
error cases to the population.

                          Table 1: Sample Results Projected to the Population 10
                                                               Projected
                                                  Number
                                                             Overpayments          Preventable
                     Overpayments                 of Error
                                                                 as of            Overpayments
                                                   Cases
                                                              March 2013
                   Overpayments—
                 Administrative Finality              9        $7,644,626           $10,279,135
                      May Apply
                  Overpayments—Not
                      Involving                       20        5,912,621           4,289,898 11
                 Administrative Finality
                        TOTALS                        29       $13,557,247          $14,569,033

Additionally, 21 (42 percent) of the 50 sampled cases did not have current dual-entitlement
overpayments. Two of these cases never had a dual-entitlement payment error. However, 19 of
these cases had dual-entitlement overpayments when we obtained the audit population in
November 2012, but, during our audit period, SSA identified the overpayments and took
corrective actions. For these 19 cases, the overpayments totaled about $132,000, and the
overpayment periods ranged from 3 months to over 5 years. Moreover, for 6 of the cases, SSA
recorded overpayments ranging from $11,194 to $24,417, totaling over $95,000. Although we
did not report these 19 cases as payment errors, had SSA timely identified that the beneficiaries
were receiving full benefits on 2 records, it could have prevented the large overpayments.



10
     See Appendix B for sample results and projections.
11
  This amount represents additional overpayments for 18 of 20 cases in which the overpayments continued during
the 1-year period April 2013 through March 2014.



Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                                       3
Dual-entitlement Errors Involving Administrative Finality
For 9 (18 percent) of the 50 sample cases reviewed, SSA’s administrative finality regulations
may apply and therefore SSA will not correct the payment errors. In general, administrative
finality applies when the payment error occurred 4 years before SSA recognized the error. 12
Based on our sample results, we estimate that had SSA recognized the dual-entitlement
overpayments, it would not have paid about 664 beneficiaries approximately $7.6 million in
benefits that these beneficiaries were not entitled to receive. Further, if SSA applies its
administrative finality regulations, the Agency will not correct the ongoing overpayments and
will therefore improperly pay about $10.3 million in future benefits—until the child beneficiaries
attain age 18 and are no longer entitled to the benefits or the adult beneficiaries die.

Once SSA decides a claimant is eligible for benefits and determines the benefit amount, it may
occasionally review or update the beneficiary’s record when current information becomes
available. SSA’s review and update may result in a change to the monthly benefit amount, such
as recognizing an over- or underpayment or suspending or terminating benefits. However, SSA
implemented administrative finality regulations to protect beneficiaries from the inconvenience
or hardship that could result from the correction of an Agency error. 13

Generally, under administrative finality, SSA will only revise an incorrect Title II benefit
calculation that resulted in payment of more benefits than were due if the error is
discovered within 4 years. Further, if SSA discovers the error after 4 years, the Agency does not
adjust the payment amounts unless a new determination is made because of a change in the type
of benefit—for example, when benefits are converted from disability to retirement upon a
beneficiary’s attainment of full retirement age. However, in certain circumstances involving
fraud or similar fault, SSA may reopen a case at any time. 14

Following are examples of dual-entitlement overpayment cases we found in our sample that may
have involved SSA’s administrative finality regulations.

      One adult beneficiary received $804 in full benefits on her own Social Security record and,
       as a surviving divorced wife, $345 on another record, totaling $1,149 a month. 15 This
       individual received benefits on two records from December 1991 through the end of our
       review period in March 2013. While this individual was entitled to benefits on both records,
       had SSA recognized the dual-entitlement, she would not have received full benefits on both.
       The correct combined payable amount for this individual was $921. Considering the
       allowable dual-entitlement payment in this case, SSA overpaid the beneficiary approximately
       $45,000. Further, if SSA applies its administrative finality regulations to this case, it will not


12
     20 C.F.R. § 404.988(b).
13
     SSA, Benefit Authorizer Basic Training Program, Administrative Finality (BA-48), last updated May 3, 2013.
14
     20 C.F.R. § 404.988(c)(1).
15
  For example purposes, we used the two benefit amounts for March 2013. The monthly benefit amounts change
due to annual cost of living adjustments and other changes to beneficiaries’ records.



Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                                        4
     correct the payment error or collect the existing overpayment. If the case is not corrected, we
     estimate SSA will pay this individual about $17,750 more in future benefits than she is
     entitled to receive.

    Another adult beneficiary received $84 in full benefits on her own record and $383 as a
     divorced wife, totaling $467 a month. This individual received benefits on two records from
     July 2007 through the end of our review period in March 2013. While this individual was
     entitled to benefits on both records, had SSA recognized the dual-entitlement, she would not
     have received full benefits on both. The correct combined payable amount for this individual
     was $389. Considering the allowable dual-entitlement payment in this case, SSA overpaid
     the beneficiary approximately $5,100. Further, if SSA does not correct the payment error,
     we estimate the Agency will pay this individual about $17,500 more in future benefits than
     she is entitled to receive.

In 2012, we recommended the Agency evaluate its administrative finality regulations and
consider revising them to allow for the collection of more debt. 16 SSA agreed with our
recommendation and is evaluating comments from the public on proposals for changing these
rules. We are encouraged that SSA is taking steps to address its regulations and therefore we
will not reiterate our previous recommendation in this report. However, SSA will continue
paying the incorrect amounts throughout beneficiaries’ lifetimes unless its administrative finality
regulations are revised to permit payment error corrections. Because these continuing improper
payments affect the integrity of Agency Trust Funds, we will monitor SSA’s progress in
addressing this corrective action and make further recommendations in future audits, as
necessary.

Dual-entitlement Errors Not Involving Administrative Finality
Of the 50 sample cases reviewed, 20 (40 percent) had overpayment errors and did not involve
SSA’s administrative finality regulations. Based on these results, we estimate that, as of
March 2013, SSA overpaid approximately 1,475 beneficiaries about $6 million. In addition,
18 of the 20 beneficiaries had overpayments that continued after March 2013. Based on this
continuing number of errors, we estimate that, for 1 year after March 2013, the overpayments in
our population totaled about $4.3 million.

SSA has policies and procedures to recognize and process cases in which claimants are paid on
more than one Social Security record. 17 SSA told us that, in addition to automated alerts, in the
normal course of processing claims, staff might identify beneficiaries receiving full benefits on
two Social Security records. For example, when SSA employees update a claim with new
information, they may recognize the dual payment error and take action to correct the



16
  SSA OIG, Significance of Administrative Finality in the Social Security Administration’s Programs
(A-08-11-21107), July 2012.
17
  SSA, Program Operations Manual System, section SM 00820. SSA also has an automated and manual operation
for identifying and correcting improper duplicate payment situations.



Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                                  5
overpayment. However, SSA explained that, because of the various unusual situations that result
in dual-entitlement and the inconsistent information claimants may provide to SSA, staff did not
always recognize dual-entitlement situations.

Below are examples of dual-entitlement overpayment cases we found in our sample for which
SSA’s administrative finality regulations did not apply, because the error began less than 4 years
from the date we identified it.

   One child beneficiary received benefits from both parents from September 2010 through
    March 2013. A child is not eligible to receive full benefits on two Social Security records.
    However, SSA did not recognize it was paying this child beneficiary on two records. In this
    case, the beneficiary was receiving two benefit amounts—$788 and $291, which totaled
    $1,079 a month. However, the child beneficiary was only due the higher monthly benefit of
    $788 from the mother’s Social Security record. The child was not entitled to the
    $291 payment on the father’s record. As a result, the child beneficiary was overpaid
    approximately $10,000. Further, we estimate SSA overpaid the child about $3,500 in the
    12 months following our review period.
   An adult beneficiary received $798 in full disability benefits on her own Social Security
    record and $919 as a disabled surviving divorced wife on another individual’s record, which
    totaled $1,717 a month. This individual received benefits on two records from May 2012
    through the end of our review period in March 2013. Although this individual was entitled to
    benefits on both records, had SSA recognized the dual-entitlement, the beneficiary would not
    have received full benefits on both records. The correct combined payable amount for this
    individual was $1,147. Taking into account the allowable dual-entitlement payment in this
    case, SSA overpaid the beneficiary $6,200. In addition, we estimate SSA overpaid this
    beneficiary about $6,800 in the 12 months following our review period.

We believe SSA should ensure it is paying the correct benefit to individuals who have dual
entitlements under the Title II program.

CONCLUSIONS
Because SSA did not always recognize that some beneficiaries were receiving benefits on two
Social Security records, it improperly paid full benefits on both records. As a result, we estimate
SSA overpaid millions of dollars.

Further, if SSA applies administrative finality to the nine error cases with an ongoing
overpayment dating back more than 4 years, it will not collect the overpayments or make
corrections to prevent future overpayments on these cases or any other cases in the population
where administrative finality applies. In a previous report, we recommended SSA evaluate, and
consider revising, its administrative finality regulations to allow for the collection of more debt.
SSA agreed with the recommendation and is evaluating the public’s response to proposed
regulation changes. We are encouraged that SSA is actively considering changes to its
regulations. As such, we will not restate our previous recommendation in this report.




Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                             6
RECOMMENDATIONS
We recommend that SSA:

1. Review all cases in our population to ensure all overpayments are identified, recorded, and
   pursued for recovery.

2. Based on review and analysis of the cases from recommendation one, determine whether
   additional controls are necessary to identify and correct Title II duplicate payments.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                       7
                                        APPENDICES




Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

   Reviewed applicable sections of the Social Security Act, Code of Federal Regulations, and
    the Social Security Administration’s (SSA) Program Operations Manual System. 1

   Identified a population, from SSA’s Master Beneficiary Record, 2 of 3,687 individuals who
    were receiving dual-entitlement benefits as of November 2012 but for whom SSA’s records
    did not indicate dual-entitlement.

   Selected a random sample of 50 records from the population for detailed analysis.

   Met with staff from SSA’s Office of Operations on selected cases to review our payment
    error determinations and our case review methodology.

   Updated our review of the error cases—as of March 31, 2014—to determine whether SSA
    identified the payment errors resulting from full benefit payments on two records.

We conducted our review between July 2013 and March 2014 in Atlanta, Georgia. We
determined the data used for this audit were sufficiently reliable to meet our audit objective. Our
review of internal controls was limited to obtaining an understanding of SSA’s dual-entitlement
program.

The principal entities audited were SSA field offices and program service centers under the
Office of the Deputy Commissioner for Operations. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




1
 Social Security Act § 201 et seq.; 42 U.S.C. § 401 et seq.; 20 C.F.R. §§ 404.987-404.996; and SSA’s Program
Operations Manual System, sections SM 00820, RS 00615.020, and GN 04020.
2
 SSA establishes a Master Beneficiary Record for each claimant. The Master Beneficiary Record maintains
pertinent information needed to accurately pay benefits to the claimant and all entitled dependents. The information
SSA maintains includes identification data (name, Social Security number, date of birth, address), type and date of
disability, and monthly Disability Insurance benefit.



Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                                      A-1
Appendix B – SAMPLE RESULTS AND PROJECTIONS
From the Social Security Administration’s (SSA) Master Beneficiary Record, 1 we identified a
population of 3,687 individuals who were receiving dual-entitlement benefits as of
November 2012, but SSA’s records did not indicate dual-entitlement. From this population, we
selected a random sample of 50 records for detailed analysis.

For each overpayment case in our sample, we estimated the overpayment results from the first
month the dual entitlement began through March 2013. We projected our test results at the
90-percent confidence level.

Overpayment Errors—Not Involving Administrative Finality
We determined that 20 (40 percent) of the 50 dually entitled beneficiaries reviewed had
overpayments and did not involve SSA’s administrative finality 2 regulations because the error
began less than 4 years from the date we identified it.

Table B–1 details our sample results and projections to the population.




1
 SSA establishes a Master Beneficiary Record for each claimant. The Master Beneficiary Record maintains
pertinent information needed to accurately pay benefits to the claimant and all entitled dependents. The information
SSA maintains includes identification data (name, Social Security number, date of birth, address), type and date of
disability, and monthly Disability Insurance benefit.
2
  Generally, under administrative finality, SSA will only revise an incorrect Title II benefit calculation that resulted
in payment of more benefits than were due, if the error is discovered within 4 years. Conversely, if SSA discovers
the error after 4 years, the Agency generally does not adjust the payment amounts. See Social Security Act §§
205(c)(4) and (5), 42 U.S.C. §§ 405 (c)(4) and (5), 20 C.F.R. §§ 404.987-404.996, and SSA’s Program Operations
Manual System, section GN 04020.



Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                                           B-1
              Table B–1: Overpayments—Not Involving Administrative Finality
                        Projections of Attribute and Variable Appraisals
                                  Population and Sample Data
               Total Population—Number of Dual-Entitlement
                                                                         3,687
               Cases Not Recognized in SSA’s System
               Sample Size—Number of Cases                                  50
               Number of Overpayments in Sample                             20
               Dollar Value of Overpayments in Sample                 $80,182
                                 Attribute Appraisal Projections
               Projection to Population                           Projections
               Point Estimate                                            1,475
               Lower Limit                                               1,047
               Upper Limit                                               1,936
                                 Variable Appraisal Projections
               Projection to Population                           Projections
               Point Estimate                                     $5,912,621
               Lower Limit                                        $3,370,632
               Upper Limit                                        $8,454,609
               Projections made at the 90-percent confidence level.


Continuing Overpayments—Not Involving Administrative Finality
We determined for the 50 sample cases, 20 had overpayments and did not involve administrative
finality, because the error began less than 4 years from the date we identified it. Of these cases,
18 had overpayments that continued after March 2013. Table B–2 details our test results and
projections to the population.

       Table B–2: Continuing Overpayments—Not Involving Administrative Finality
                        Projections of Attribute and Variable Appraisals
                                  Population and Sample Data
               Total Population—Number of Dual-Entitlement
                                                                     3,687
               Cases Not Recognized in SSA’s System
               Sample Size—Number of Cases                              50
               Number of Overpayments in Sample                         18
               Dollar Value of Overpayments in Sample             $58,176
                                 Attribute Appraisal Projections
               Projection to Population                           Projections
               Point Estimate                                        1,327
               Projections made at the 90-percent confidence level.



Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                      B-2
Table B–3 details our estimation of the continuing overpayments for 1 year after March 2013.

       Table B–3: Continuing Overpayments—Not Involving Administrative Finality
       1-Year Estimate—Overpayment Cases with Continuing Overpayment Errors
  Number of Dual-Entitlement Sample Cases Not Recognized in SSA’s
                                                                            18
  System that have a Continuing Overpayment
  Total Continuing Overpayment for the 18 Error Cases for March 2013               $58,176
  Average Continuing Overpayment for the 18 Cases as of March 2013                   $3,232
  Estimated Number of Continuing Overpayments in the Population                       1,327
  Estimated Continuing Overpayments for the 1 Year Following March 2013         $4,289,898
  Projections made at the 90-percent confidence level.


Overpayments—Administrative Finality May Apply
We determined that 9 (18 percent) of the 50 dually entitled beneficiaries reviewed had
overpayments, but SSA’s administrative finality rules may apply. Table B–4 details our test
results and projections to the population.

                Table B–4: Overpayments—Administrative Finality May Apply
                       Projections of Attribute and Variable Appraisals
                                 Population and Sample Data
           Total Population—Number of Dual-Entitlement
                                                                        3,687
           Cases Not Recognized in SSA’s System
           Sample Size—Number of Cases                                     50
           Number of Overpayment Errors in Sample                           9
           Dollar Value of Overpayment Errors in Sample              $103,670
                                Attribute Appraisal Projections
           Projection to Population                               Projections
           Point Estimate                                                 664
           Lower Limit                                                    361
           Upper Limit                                                  1,077
                                Variable Appraisal Projections
           Projection to Population                               Projections
           Point Estimate                                         $7,644,626
           Lower Limit                                              $563,486
           Upper Limit                                           $14,725,765
           Projections made at the 90-percent confidence level.




Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                     B-3
Additionally, because SSA may not be able to correct the ongoing overpayments, we estimated
the future overpayments—until the child beneficiaries attain the age of 18 and are no longer
entitled to the benefits, or the adult beneficiaries die. Table B–5 details our test results and
future projections to the population.

           Table B–5: Future Overpayments—Administrative Finality May Apply
                       Projections of Attribute and Variable Appraisals
                                 Population and Sample Data
            Total Population—Number of Dual-Entitlement
                                                                        3,687
            Cases Not Recognized in SSA’s System
            Sample Size—Number of Cases                                    50
            Number of Overpayment Errors in Sample                          9
            Dollar Value of Overpayment Errors in Sample            $139,397
                                Attribute Appraisal Projections
            Projection to Population                              Projections
            Point Estimate                                                664
            Lower Limit                                                   361
            Upper Limit                                                 1,077
                                Variable Appraisal Projections
            Projection to Population                              Projections
            Point Estimate                                       $10,279,135
            Lower Limit                                           $2,641,048
            Upper Limit                                          $17,917,222
            Projections made at the 90-percent confidence level.




Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                     B-4
           Appendix C – AGENCY COMMENTS




                                              SOCIAL SECURITY

MEMORANDUM

Date:                                                                                   Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton
           Deputy Chief of Staff

Subject:   Office of the Inspector General Reissued Draft Report, “Payment Accuracy of Dually Entitled
           Title II Beneficiaries” (A-04-13-13014) — INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL REISSUED DRAFT
REPORT, “PAYMENT ACCURACY OF DUALLY ENTITLED TITLE II
BENEFICIARIES” (A-04-13-13014)


Recommendation 1

Review all cases in our population to ensure all overpayments are identified, recorded, and
pursued for recovery.

Comment

We agree. We will send the 3,687 cases to the Program Service Centers (PSC) for review and
manual processing to correct any payment errors on the Master Beneficiary Record (MBR). We
expect to complete casework by December 31, 2014.

Recommendation 2

Based on review and analysis of the cases from recommendation one, determine if additional
controls are necessary to identify and correct Title II duplicate payments.

Comment

We agree. We will work to ensure that our automated and manual processes effectively identify
and correct as many improper Title II duplicate payment situations as possible. Based on our
review and analysis of the cases from recommendation one and our comparison of the results of
this audit with our Master File Duplicate Detection Operation (MAFDUP) software application
(designed to find beneficiaries incorrectly receiving Title II benefits across more than one MBR),
we will determine if additional controls or policies are necessary.




Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)                     C-2
Appendix D – MAJOR CONTRIBUTORS
Theresa Roberts, Director, Atlanta Audit Division

Frank Nagy, Audit Manager

Mike Leibrecht, Senior Auditor




Payment Accuracy of Dually Entitled Title II Beneficiaries (A-04-13-13014)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
